W.D.N.Y.
19-cv-6486
Geraci, C.J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 11th day of March, two thousand twenty-one.
Present:
Barrington D. Parker,
Gerard E. Lynch,
Joseph F. Bianco,
Circuit Judges.
Timothy Brewer,
Petitioner-Appellant,
v.

20-3517

Stewart Eckert, (Superintendent)

!

Respondent-Appellee.

&

Appellant, pro se, moves for a certificate of appealability. Upon due consideration, it is hereby
i ORDERED that the motion is DENIED and the appeal is DISMISSED because Appellant has not
“made a substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c); see also
Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

?

APPENDIX A

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 1 of 38

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF NEW YORK
# 19-CV-6486-FPG
DECISION AND ORDER

TIMOTHY BREWER,
Petitioner,
v.

STEWART ECKERT, Superintendent,
Respondent.

INTRODUCTION
Pro se Petitioner Timothy Brewer has filed an application for a writ of habeas corpus
pursuant to 28 U.S.C. § 2254 challenging his October 4, 2010 conviction, following a jury trial in
New York State Supreme Court, Monroe County (Doyle, J), on two counts each of Predatory
Sexual Assault Against a Child (N.Y. Penal Law § 130.96) and Sexual Abuse in the First Degree
(Id, § 130.65[3]). See Petition, ECF No. 1. For the reasons discussed below, the Petition is
DISMISSED, and a certificate of appealability is DENIED.

BACKGROUND
I.

The Trial
A. The Prosecution’s Case
In January of 2009, Davon D. moved from Buffalo to live with Petitioner, her boyfriend of

eight years, at his house in Rochester, New York. Davon’s seven-year-old daughter, O.D., and
nine-year-old daughter, M.D. came to live with them in 2009. O.D. arrived in March and M.D.

1

APPENDIX B

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 2 of 38

arrived just after the Fourth of July holiday. Though not Petitioner’s biological children, M.D. and
O.D. called him “dad.” T.363-64, 377-78. i
Davon and Petitioner slept in the front bedroom of the house. T.364-65, 376, 411-12. The
back bedroom was used by Petitioner’s friends “Gator” and “Fat Boy.” T.368-69, 370-71, 415,
506. The girls slept on sofas in the living room. They were not permitted to enter either the front
bedroom when the door was closed or the back bedroom. T.406-407, 415, 560.
Davon testified that she and Petitioner regularly smoked crack cocaine inside their
bedroom closet, which Petitioner called the “bat cave.” T.378-379. They also used the “bat cave”
as a place to have sex. T.386. Petitioner followed a particular “routine” to “signal” he was ready
to receive oral sex from Davon: he would pull the front of his shirt over his head, secure it behind
his neck, and pull down his pants. Davon then would perform oral sex on Petitioner while he “got
high” on crack. T.387-388. On one occasion in July of 2009, Davon observed Petitioner receive
oral sex in this fashion from another adult woman, “Brandy,” who had come over to the house to
smoke crack with them. T.404-406.
O.D. testified as to two incidents of sexual abuse in the summer of 2009. In June or July,
O.D. was sleeping on the couch in the living room when she awoke to find Petitioner rubbing her
vagina over her pajamas with his hand. T.598-600. On or around Fathers’ Day of 2009, Petitioner
told O.D. to come into the “bat cave” with him and turn off the light. O.D. complied but then ran
out of the closet. Sometime thereafter, Petitioner gave O.D. the same instructions. When O.D. was

i Numerals preceded by “T.” refer to the Bates-stamped numbers located at the bottom of the pages of the state court
transcripts, docketed at ECF No. 22-4. Numerals preceded by “SR.” refer to the Bates-stamped page numbers
located at the bottom of the pages of the state court records, docketed at ECF No. 22-2.

2

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 3 of 38

inside the “bat cave,” Petitioner placed his penis inside her mouth and pushed her head up and
down, which caused O.D. to vomit. T.601-604, 609-614.
M.D. also recounted two instances of abuse by Petitioner between July 4th or 5th, when she
first came to live at Petitioner’s house, and July 21st of 2009. One day, while M.D. was sleeping
on the couch in the living room, she was wakened by Petitioner touching her vagina with his hand.
T.541-542, 559. On July 21, 2009, Petitioner pulled M.D. by her hair into the back bedroom (the
room used by Fat Boy and Gator) and made her get down on her knees. See T. 547-60. He took out
his “private,” which was “stiff,” and put it in her mouth.” T.548, 558-59. With his other hand, he
pushed her head back and forth. T.552-53. Petitioner was wearing a “wife-beater” t-shirt which
he pulled over his head and tucked behind his neck. T.554. During the incident, Petitioner smoked
a crack pipe and called her a “hood rat.” T.554-556. At some point, a substance M.D. described as
“pee” came out of Petitioner’s penis and went into her mouth; she spit it out onto his shoe. T.555,
559.
After the incident in the back bedroom with M.D., Petitioner left the house to buy
cigarettes. M.D. went to Davon and told her what had just happened. T.560-562. Davon testified
that when M.D. came out of the back bedroom, she was “crying and sad.” T.423-424. M.D. told
Davon that Petitioner “told her to perform oral sex him and if she didn’t[,] he was going to kill
her.” T.423. M.D. also told Davon that she complied, that during the incident Petitioner was
“getting high,” and that he had “pulled his shirt over his head and pulled his pants down.” T.424.
After talking with M.D., Davon confronted Petitioner and then called some friends to pick up the
girls. T.424. She left the following day.
On August 3, 2009, M.D. and O.D. were examined by pediatrician Dr. Ann Lenane, who
found no physical signs of the sexual abuse they had disclosed. T.726, 732-737. Over defense
3

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 4 of 38

objection, Dr. Lenane was permitted to testify that in a California study involving 2000 children
who reported sexual abuse, only about five percent of them displayed any physical manifestations
of the alleged abuse. T.738-744.
On August 6,2009, officers from the Rochester Police Department (“RPD”) seized several
items from Petitioner’s house, including a semen-stained t-shirt. T.663-664, 666-667, 672-673.
The prosecution’s forensic biologist testified that the partial DNA profile obtained from the semen
stain on the back of the t-shirt matched Petitioner’s DNA profile. T.682, 699. That is, the
probability of randomly selecting an unrelated individual having the same DNA profile as both the
semen stain and Petitioner was less than one in 202 quintillion. T.699. No genetic material with a
DNA profile matching M.D.’s or O.D.’s genetic profile was found on the t-shirt. T.699.
2.

The Defense Case

Petitioner testified on his own behalf, acknowledging that he used the “bat cave” to smoke
crack and have sex and occasionally rented out the “bat cave” to other people to use for the same
purposes. Petitioner denied sexually abusing or improperly touching M.D. and O.D. He testified
that they were not allowed in the “bat cave,” and he denied taking either of them into the back
bedroom. T.755-756, 778-780, 801-804.
On July 21, 2009, Petitioner testified that M.D. left the house without permission; he
eventually found her at a stranger’s house down the street at about 2:30 p.m. As punishment,
Petitioner put her in a “time out.” He then told Davon, who was in the shower, that he was going
to the store. T. 760. When he got home about 15 minutes later, M.D. was running around the house.
He had words with Davon about undermining his discipline of M.D. T.762. That evening, Davon
accused him of sexually abusing M.D. and O.D. T.762-763.

4

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 5 of 38

3.

Verdict and Sentencing

The jury returned a guilty verdict on all charges. T.892-895. Petitioner was sentenced to
an indeterminate term of 25 years to life imprisonment on each count of predatory sexual assault
and a determinate 7-year term of imprisonment plus 10 years of post-release supervision for each
count of first-degree sexual abuse, all terms to run concurrently. T.903-904, 911.
II.

Post-Conviction Proceedings in State Court
A. Direct Appeal
Represented by new counsel, Petitioner appealed his conviction to the Appellate Division,

Fourth Department, New York State Supreme Court. See SR.001-039. The Appellate Division
unanimously affirmed the conviction on June 19, 2015. People v. Brewer, 129 A.D.3d 1619, 12
N.Y.S.3d 453 (4th Dep’t 2015).
On September 25, 2015, the New York Court of Appeals granted leave to appeal. In his
counseled brief, SR.131-188, Petitioner argued that the trial court violated state law and his due
process right to a fair trial by erroneously allowing the People to introduce evidence of his prior
crimes and bad acts—i.e., his sexual proclivities and drug use—for the improper purpose of
showing his propensity to commit the offenses with which he was charged; and by erroneously
admitting hearsay testimony from Davon describing M.D.’s disclosure of Petitioner’s sexual
abuse. SR. 152-187. On November 17, 2016, the New York Court of Appeals unanimously
affirmed the Appellate Division’s decision. People v. Brewer, 28 N.Y.3d 271 (2016).
B. Motion to Vacate
On February 8, 2018, Petitioner filed a pro se motion to vacate the conviction, SR.259283, pursuant to New York Criminal Procedure Law (“C.P.L.”) § 440.10 (“the 440 motion”),
5

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 6 of 38

raising the following grounds: (1) trial counsel was ineffective for failing to (i) call Petitioner’s
son as a witness, (ii) call a medical expert to rebut the testimony of Dr. Lenane and a psychological
expert to assess the reliability of the victims’ testimony, and (iii) impeach M.D. with a prior
inconsistent statement; and (2) the trial court improperly admitted certain irrelevant evidence,
specifically, a photograph of .a t-shirt, testimony about the shirt, and testimony about Petitioner’s
use of the back bedroom for his sexual activities. In support of the first claim, Petitioner submitted
an affidavit from his son, Timothy Brewer, Jr. (“Timothy”), stating that he lived with his father
during the time that the crimes allegedly occurred and never once saw his father alone with the
complainants. SR.288-295. In a written decision and order dated January 3, 2019, Monroe County
Supreme Court (Sinclair, J.) (“the 440 court”) denied the motion without a hearing. SR.300-303.
The Appellate Division denied leave to appeal on April 15, 2019. Petitioner then moved for
“reargument/reconsideration” of his application for leave to appeal, which was denied on July 2,
2019. SR.329-330.
III.

The Federal Habeas Proceeding
In the Petition, ECF No. 1, Petitioner asserts two main grounds for habeas relief. Ground

One presents a claim of ineffective assistance of trial counsel based on trial counsel’s (a) failure
to call his son, Timothy Brewer, Jr., as a witness (“Ground 1(a)”); (b)(i) failure to consult with a
medical expert to rebut the People’s expert witness, Dr. Lenane (“Ground l(b)(i)”); (ii) failure to
consult with a psychological expert to assess the complainants’ credibility (“Ground l(b)(ii)”);
and (iii) failure to have a forensics expert perform independent DNA testing (“Ground l(b)(iii)”);
and (c) failure to impeach M.D. with a police investigator’s report indicating that she at first denied
being sexually abused by Petitioner (“Ground 1(c)”). See ECF No. 1 at 7, 11.

6

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 7 of 38

Ground Two asserts that the trial court erroneously admitted (a) testimony about
Petitioner’s drug use and idiosyncratic, consensual sexual practices with adult women (“Ground
2(a)”), (b) a hearsay statement by M.D. to her mother disclosing that she was sexually abused by
Petitioner (“Ground 2(b)”), and (c) a photograph of a t-shirt stained with semen that matched
Petitioner’s DNA profile (“Ground 2(c)”).
Respondent filed an Answer, ECF No. 22; the relevant State Court Records, ECF Nos. 221 to 22-4; and a Memorandum of Law, ECF No. 21. Respondent asserts the defense of non­
exhaustion as to Ground l(b)(iii) because Petitioner has never raised it in a state court proceeding.
Respondent notes that it cannot be deemed exhausted and procedurally defaulted because he could
assert it in another motion to vacate pursuant to C.P.L. § 440.10. See ECF No. 21 at 8-9.
Respondent argues, in the alternative, that the entire Petition can be dismissed pursuant to 28
U.S.C. § 2254(b)(2), notwithstanding the presence of this unexhausted claim, because the claim is
plainly meritless. Respondent also asserts that Ground 1(c) is procedurally defaulted because the
440 court relied on an adequate and independent state ground, C.P.L. § 440.10(2)(c), to deny it.
Petitioner responded to Respondent’s arguments regarding the merit of his ineffective
assistance of trial counsel claims, see ECF No. 26 at 1-5, 7-12, and argued that Ground 1(c) is not
procedurally defaulted because the 440 court’s reliance on C.P.L. § 440.10(2)(c) is inadequate to
foreclose federal habeas review, see ECF No. 26 at 5-7. The reply’s table of contents indicates that
Petitioner intended to present an argument addressing Ground 2(c), but the page containing that
argument is missing from ECF No. 26. Petitioner did not address Respondent’s non-exhaustion
argument.

7

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 8 of 38

DISCUSSION
I.

Exhaustion
Before a federal court may grant habeas relief to a prisoner in state custody, the prisoner

must exhaust his or her state court remedies by invoking one complete round of the state’s
established appellate review process. O ’Sullivan v. Boerckel, 526 U.S. 838, 842, 845 (1999) (citing
28 U.S.C. § 2254(b)(1); other citation omitted). With regard to ineffective assistance of counsel
claims, the Second Circuit has generally required all factual allegations supporting an ineffective
assistance claim to be presented for exhaustion purposes, so that the state court may examine all
of the circumstances and the cumulative effect of counsel’s alleged errors. E.g., Rodriguez v. Hoke,
928 F.2d 534, 538 (2d Cir. 1991) (citations omitted).
In his 440 motion, Petitioner outlined two errors by trial counsel with regard to expert
witnesses. The first error was trial counsel’s failure to consult with a medical expert who could
have refuted or challenged the People’s medical expert’s opinion that “physical evidence was only
found in less than five percent of children with sexual abuse disclosures.” SR.278. The second
error was trial counsel’s failure to consult with a psychological expert to assess the reliability of
the child victims’ testimony, particularly in light of the defense evidence of their alleged motive
to fabricate the accusations against Petitioner. SR.278-279.
Apart from briefly reciting the testimony of the forensic biologist in the background section
of his affidavit in support of the 440 motion, Petitioner did not mention the prosecution’s DNA
evidence elsewhere in the motion. Nor did he assert anywhere in the 440 motion that trial counsel
should have consulted with a DNA expert. And, although Petitioner was represented by a different
attorney on appeal, appellate counsel did not raise such a claim. Rather, Petitioner mentioned the

8

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 9 of 38

need for trial counsel to consult with a DNA expert for the first time in Ground l(b)(iii) of the
Petition. Because the New York state courts have never been given an “opportunity to pass upon
and correct” the alleged constitutional error based on trial counsel’s failure to consult with a DNA
expert, the exhaustion requirement has not been fulfilled as to this claim. Picard v. Connor, 404
U S. -270, 275 (1-971).
A habeas petitioner “shall not be deemed to have exhausted the remedies available in the
courts of the State ... if he has the right under the law of the State to raise, by any available
procedure, the question presented.” 28 U.S.C. § 2254(b)(3). Petitioner already has used the one
direct appeal to which he is entitled. E.g., Cunningham v. Conway, 717 F. Supp. 2d 339, 365
(W.D.N.Y. 2010) (citations omitted). However, he does have an available remedy for raising this
off-the-record ineffective assistance claim—another motion to vacate the judgment pursuant to
C.P.L. § 440.10. There is no state statute of limitations that would bar him from bringing a second
such motion. People v. Corso, 40 N.Y.2d 578, 580 (1976)).
While the state court has the authority to deny a claim that could have been raised in an
earlier collateral motion under C.P.L. § 440.10(3)(c), there is no absolute rule in New York barring
successive C.P.L. § 440.10 motions. E.g.,Borcyk v. Lempke, 727 F. Supp. 2d 189,192 (W.D.N.Y.
2010) (citing N.Y. C.P.L. § 440.10(3)(c) (“[T]he court may deny a motion to vacate a judgment
when . . . [u]pon a previous motion made pursuant to this section, the defendant was in a position
adequately to raise the ground or issue underlying the present motion but did not do so. . . .”);
collecting cases). Because Petitioner still has an available avenue to return to state court to exhaust
his ineffective assistance claim in Ground 1(c), it cannot be deemed exhausted. E.g., Browne v.
Heath, No. 11 CV 1078 DLI, 2014 WL 8390320, at *16 (E.D.N.Y. Aug. 25, 2014), report and

9

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 10 of 38

recommendation adopted, No. ll-CV-1078 DLI CLP, 2015 WL 1469182 (E.D.N.Y. Mar. 30,
2015).
Because Ground l(b)(iii) is unexhausted, and the remaining claims in the Petition are
exhausted, the Petition is a so-called “mixed petition.” Zarvela v. Artuz, 254 F.3d 374, 382 (2d
Cir. 2001). Courts in this Circuit have identified four procedural options available when confronted
with a mixed petition: “(1) dismiss the petition in its entirety without prejudice; (2) deny the entire
petition on the merits [pursuant to 28 U.S.C. § 2254(b)(2)]; (3) allow the petitioner to delete the
unexhausted claims and proceed with his exhausted claims; or (4) in limited circumstances, stay
the petition to allow petitioner to exhaust his unexhausted claims.” Wesley-Rosa v. Kaplan, 274 F.
Supp. 3d 126, 128 (E.D.N.Y. 2017) (quotation omitted); see generally Rhines v. Weber, 544 U.S.
269, 277 (2005); Zarvela, 254 F.3d at 381-82.
The first option, dismissal of the habeas application in its entirety without prejudice, is only
appropriate when doing so would not jeopardize the timeliness of a subsequent collateral attack.
Zarvela, 254 F.3d at 382 (citation omitted). Here, the statute of limitations expired on July 9,
2019,3 and it was not tolled during the pendency of the federal habeas proceeding. Duncan v.
Walker, 533 U.S. T67, 181 (2001). It cannot be “restarted” by the filing of another state-court
application for collateral relief. Bethea v. Girdich, 293 F.3d 577, 578 (2d Cir. 2002) (citation
omitted).

3 The Court of Appeals affirmed Petitioner’s conviction on November 17, 2016, and it became final 90 days later, on
February 15, 2017, when his time for filing a petition for a writ of certiorari in the United States Supreme Court
expired. Ross v. Artuz, 150 F.3d 97, 98 (2d Cir. 1998). The limitations period ran for 358 days until Petitioner filed
his 440 motion on February 8, 2018. Pursuant to 28 U.S.C. § 2244(d)(2), the 440 motion tolled the period until July
2, 2019, when the Petitioner’s motion to reargue the denial of his leave application was denied. E.g., Smalls v. Smith,
No. 05-CV-5182 (CS), 2009 WL 2902516, at *8 (S.D.N.Y. Sept. 10, 2009) (citation omitted). Once tolling ended,
Petitioner had seven days, i.e., until July 9, 2019, to file his Petition. The Petition was signed April 27, 2019 and
postmarked until June 27, 2019. Thus, the Petition was timely filed.
10

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 11 of 38

The second option allows the Court to reach the merits of all of the claims in the Petition,
unexhausted and exhausted, pursuant to 28 U.S.C. § 2254(b)(2) (“An application for a writ of
habeas corpus may be denied on the merits notwithstanding the failure of the applicant to exhaust
the remedies available in the courts of the state.”) (emphasis supplied). However, the only outcome
with this option is denial of the entire petition. See Caswell v. Racetti, No. 1 l-CV-0153 MAT.,
2012 WL 1029457, at *4 (W.D.N.Y. Mar. 26, 2012) (“The Second Circuit and other circuit courts
of appeals have interpreted this provision to allow courts to deny mixed petitions on the merits,
but not to allow courts to grant mixed petitions on the merits.”) (collecting circuit authority).
The habeas statute does not articulate a standard for denying a petition containing
unexhausted claims on the merits pursuant to Section 2254(b)(2), and neither the Supreme Court
nor the Second Circuit has established one. The rationale behind 28 U.S.C. § 2254(b)(2) has been
described as “spar[ing] state courts from needlessly wasting their judicial resources on addressing
meritless claims solely for the sake of exhaustion.” Keating v. New York, 708 F. Supp. 2d 292,299
n. 11 (E.D.N.Y. 2010). “On the other hand, comity demands that state courts be afforded the
opportunity to pass upon any constitutional claim that is at least potentially meritorious before a
federal habeas court decides it.” Id. (citing Reid v. Angelone, 369 F.3d 363, 373 (4th Cir. 2004)
(habeas court should not deny unexhausted claims if “reasonable jurists could debate” their
merits)).
Under the third option, Petitioner would agree to dismiss, without prejudice, the
unexhausted claim from the Petition, removing it from this Court’s consideration. See Young v.
Great Meadow Corr. Fac. Sup’t, No. 16CV1420PAEBCM, 2017 WL 480608, at *5 (S.D.N.Y.
Jan. 10, 2017) (To avoid dismissing entire petition pursuant to 28 U.S.C. § 2254(b)(2), “a district
court may exercise its discretion to presume—unless [the petitioner] expressly indicates
11

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 12 of 38

otherwise—that he would rather delete his unexhausted claims than see his entire petition
dismissed without regard to the merits of the exhausted claims.”) (collecting cases). Because the
Petition then would contain only exhausted claims, the Court theoretically could grant habeas
relief, provided that Petitioner satisfied the prerequisites in 28 U.S.C. § 2254(d).
The fourth option, granting a stay and holding the Petition in abeyance, is not appropriate
here. As Respondent notes, Petitioner has not requested a stay. In Rhines, the Supreme Court held
that a district court may stay a mixed petition “only in limited circumstances,” i.e., “if the petitioner
had good cause for his failure to exhaust, his unexhausted claims are potentially meritorious, and
there is no indication that the petitioner engaged in intentionally dilatory litigation tactics.” 546
U.S. at 277-78. On the other hand, it would be an abuse of discretion to grant a stay when the
claims are “plainly meritless.” Id. at 277.
The Court finds that Petitioner is unable to show that Ground l(b)(iii) is “potentially
meritorious.” According to Petitioner, since one of the complainants (M.D.) “claimed to spit
ejaculate out,” the “[t]he lack of her DNA [on the t-shirt] could have clearly rebutted critical
inferences drawn from the shirt & testimony of [Davon].” ECF No. 1 at 14. The record, however,
reveals that the DNA testing trial counsel purportedly should have obtained was unnecessary since
the prosecution’s expert conceded that no DNA from either of the complainants was found on any
of the items tested, including the t-shirt. Trial counsel extensively cross-examined the forensic
biologist and elicited this favorable evidence from her, namely, that none of the semen stains found
around Petitioner’s house, including the semen stain on the back of the t-shirt retrieved from the
back bedroom, contained DNA from M.D. or O.D. T.697-704. Trial counsel then emphasized this
lack of evidence in his summation. T.830-832. Petitioner can neither demonstrate that he was
prej udiced by trial counsel ’ s failure to pursue independent DNA testing, nor that trial counsel acted
12

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 13 of 38

unreasonably in relying on the conclusions obtained by the prosecution’s DNA testing with regard
to the complainants’ DNA, since those results were favorable to the defense. Ground l(b)(iii), in
short, rests on a misapprehension of the record.
A further reason why a stay is inappropriate is Petitioner’s inability to show any cause,
much less “good cause,” for his failure to exhaust Ground l(b)(iii) earlier. See Carr v. Graham,
27 F. Supp. 3d 363, 365 (W.D.N.Y. 2014) (“The absence of ‘good cause’ for the failure to exhaust
is fatal to Petitioner’s ability to fulfill the Rhines standard.”) (citing Rhines, 544 U.S. at 277
(“Because granting a stay effectively excuses a petitioner’s failure to present his claims first to the
state courts, stay and abeyance is only appropriate when the district court determines there was
good cause for the petitioner’s failure to exhaust his claims first in state court.”)).
To summarize, the first and fourth options are not appropriate under the circumstances of
this case, leaving the Court to select between the second and third alternatives. The Court notes
that despite being apprised by Respondent’s opposition papers that his Petition contains an
exhausted claim, Petitioner did not request in his reply brief that Ground l(b)(iii) claim be deleted
from the Petition. At the same time, Petitioner did not mention Ground 1 (b)(iii) in his reply, which
suggests he may have abandoned it. See Taylor v. Sabourin, 269 F. Supp. 2d 20, 22 (S.D.N.Y.
2003) (considering claim mentioned by pro se petitioner that was not included in section of habeas
petition asking petitioner to enumerate facts supporting claims, and that was not addressed by
respondent in opposition or by petitioner on reply, to be abandoned).
The Court need not attempt to divine whether Petitioner wishes to delete his unexhausted
claim because, under either the second or third options, the outcome is same—the Petition must
be denied. As discussed below, none of the exhausted claims have merit. And, as discussed above
in connection with the stay-and-abeyance analysis, Ground l(b)(iii) is factually unsupported and
13

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 14 of 38

legally without merit. Moreover, its lack of merit is not subject to debate by reasonable jurists.
Accordingly, reliance on 28 U.S.C. § 2254(b)(2) to deny this mixed petition is appropriate. E.g.,
Mills v. Lempke, No. ll-CV-0440 MAT, 2013 WL 435477, at *5 (W.D.N.Y. Feb. 4, 2013).
II.

Procedural Default
Respondent argues that Ground 1(c), asserting ineffective assistance of trial counsel based

on the failure to impeach complainant M.D. with a police report in which she initially denied being
sexually abused by Petitioner, is procedurally defaulted. Petitioner asserted this claim in his motion
to vacate, and the 440 court held that since it was “a matter of record that could have been
addressed on direct appeal,” it “must deny this portion of the motion pursuant to CPL
§ 440.10(2)(c).”4 SR.303. Respondent contends that C.P.L. § 440.10(2)(c) constitutes an adequate
and independent state ground for denying the claim, and therefore it is procedurally defaulted from
habeas review. See Lee v. Kemna, 534 U.S. 362, 375 (2002) (stating that a federal court “will not
take up a question of federal law presented in a case ‘if the decision of [the state] court rests on a
state law ground that is independent of the federal question and adequate to support the
judgment.’”) (quotation omitted; emphases and alteration in original)). “[T]he adequacy of state
procedural bars to the assertion of federal questions ... is itself a federal question.” Id. (quotation
omitted). Thus, “[bjefore accepting a procedural bar defense, a federal court must examine the

4 As relevant here, C.P.L. § 440.10(2)(c) provides that “[n]otwithstanding the provisions of subdivision one [listing
grounds for vacating judgment], the court must deny a motion to vacate a judgment when .. .
[although sufficient facts appear on the record of the proceedings underlying the judgment to have
permitted, upon appeal from such judgment, adequate review of the ground or issue raised upon the
motion, no such appellate review or determination occurred owing to the defendant’s . . .
unjustifiable failure to raise such ground or issue upon an appeal actually perfected by him. ...”
N.Y. Crim. Proc. Law § 440.10(2)(c).
14

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 15 of 38

adequacy of the alleged procedural default.” Cotto v. Herbert, 331 F.3d 217, 239 (2d Cir. 2003)
(citation omitted).
In New York, where a claim of ineffective assistance of counsel is “well established in the
trial record, a state court’s reliance on [C.P.L. § 440.10](2)(c) provides an independent and
adequate procedural bar to federal habeas review.” Murden v. Artuz, 497 F.3d 178, 196 (2d Cir.
2007) (citation omitted). “Claims are based on the trial record when a reviewing court could
‘conclude that defendant’s counsel was ineffective simply by reviewing the trial record without
the benefit of additional background facts’ that would need to be developed through a post­
conviction motion pursuant to CPL 440.10.” Chatmon v. Mance, No. 07-CV-9655 KMK GAY,
2011 WL 5023243, at *9 n. 5 (S.D.N.Y. Oct. 20, 2011) (quoting People v. Love, 57 N.Y.2d 998,
1000(1982)).
There is “no dispute” that 440.10(2)(c) is “firmly established and regularly followed” by
New York courts. Pierotti v. Walsh, 834 F.3d 171,177 (2d Cir. 2016) (collecting cases). However,
“even if a procedural bar is ‘firmly established and regularly followed [by the state courts],’ a
petitioner may still challenge the adequacy of the bar in exceptional cases where the state court’s
application of the rule was ‘exorbitant,’ ‘rendering] the state ground inadequate to stop
consideration of a federal question.’” Id. (quoting Lee, 534 U.S. at 376; second alteration in
original). Id. Petitioner’s challenge concerns the 440 court’s application of 440.10(2)(c) to the
circumstances of his case.
Petitioner does not contest that the 440 court’s reliance on C.P.L. § 440.10(2)(c) was
“independent” to support the judgment, particularly since it was the only ground cited for denying
the ineffective assistance claim. See Harris v. Reed, 489 U.S. 255, 263 (1989). Rather, he argues
that the procedural rule was inadequate to support the judgment because Ground 1(c) is the type
15

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 16 of 38

of off-the-record ineffectiveness claim that is appropriately brought in a C.P.L. § 440.10 motion.
See ECF No. 26 at 6 (citing Pierotti, 834 F.3d at 177; other citation omitted). Petitioner notes that
the police report containing M.D.’s statement was not actually part of the appellate record; he also
argues that the claim “is predicated on counsel’s lack of investigation/strategy,” ECF No. 26 at 67, which is not apparent from the record. Moreover, Petitioner urges, because his ineffective
assistance claim includes both on-the-record and off-the-record arguments, a § 440 motion is the
only place that such a “mixed claim” can be raised. Id. at 6 (citing Pierotti, 834F.3dat 178; People
v. Maxwell, 933 N.Y.S.2d 386, 388 (2d Dep’t 2011)).
In Maxwell, the Appellate Division explained that
[i]n order to properly review a defendant’s claim of ineffective assistance, a court
must consider all of his or her allegations—as well as the evidence, the law, and
the circumstances of the case—"in totality.” Thus, where. .. a defendant presents a
mixed claim of ineffective assistance that depends, in part, upon matters that do not
appear on the record, it cannot be said that “sufficient facts appear on the record
with respect to the ground or issue raised upon the motion to permit adequate
review thereof upon such an appeal” ....
Maxwell, 933 N.Y.S.2d at 388 (internal quotation omitted). “[S]uch a mixed claim,” the Appellate
Division held, “is not procedurally barred [Mien raised in a]... CPL 440.10 proceeding,” which
“is the appropriate forum for reviewing the claim of ineffectiveness in its entirety.” M; accord
People v. Taylor, 64 N.Y.S.3d 714, 715 (3d Dep’t 2017). The Second Circuit recently recognized
Maxwell as representing the prevailing approach under New York law Mien a “mixed claim” of
ineffective assistance is raised. See Pierotti, 834 F. 3d at 178-79; Anderson v. Lee, No. 19-CV-4488
(BMC), — F. Supp. 3d —-, 2020 WL 1682605, at *6 (E.D.N.Y. Apr. 7, 2020) (“The weight of
state case law suggest that New York courts regularly apply the firmly established concept of an
‘unified’ ineffective assistance of counsel claim espoused by Maxwell and Taylor when a ‘mixed’
claim is raised and permit the claim to be brought in collateral proceedings.”).
16

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 17 of 38

The issue here is somewhat complicated by the fact that Petitioner’s 440 motion relied
solely on the trial transcript containing the colloquy around trial counsel’s unsuccessful attempt to
utilize the police report in cross-examining the RPD investigator who authored it. Petitioner did
not present any material outside the record, such as the police report itself, to the 440 court. See
SR.270, .280-282 (citations to record omitted). However, Petitioner did request further factual
development through an evidentiary hearing. And, even if the failure-to-impeach claim is deemed
an “on-the-record” ineffectiveness claim, Petitioner asserted other ineffective assistance claims in
the 440 motion that clearly relied on material outside the record, such as Ground 1 (b)(i), which
rested on an affidavit from his son. Thus, regardless of how Ground 1(c) is characterized, Petitioner
still presented a “mixed claim” of ineffective assistance of counsel, which was appropriately raised
in a C.P.L. 440.10 motion so that all of his allegations could be considered “‘in totality.’” Maxwell,
933 N.Y.S.2d at 388 (quoting People v. Baldi, 54 N.Y.2d 137, 147 (1981)); see also Pierotti, 834
F.3d at 179 (finding that that petitioner’s ineffective assistance claim was a “mixed claim” because
it “depended on some facts appearing on the trial record, such as his trial counsel’s failure to secure
an accommodation for [the petitioner]’s hearing impairment, but his claim ultimately turns on facts
appearing outside the record. ...”).
Respondent has not acknowledged Pierotti or the Maxwell/Taylor line of cases. Nor has
Respondent presented the Court with any New York caselaw indicating that claims like
Petitioner’s must be raised on direct appeal under C.P.L. § 440.10(2)(c). In the absence of such
authority, the Court “can only conclude that the state court’s reliance on [C.P.L. §] 440.10(2)(c)
to bar [Petitioner’s] claim represents an ‘exorbitant application’ of the state rule.” Pierotti, 802
F.3d at 264 (quotations omitted). Thus, § 440.10(2)(c) was “inadequate” to foreclose review of
Petitioner’s ineffective assistance of trial counsel claim. See id; see also, e.g., Murden, 497 F.3d
17

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 18 of 38

at 196 (“While it is true that the state court explicitly relied on [C.P.L. § 440.10(2)(c)] when it
denied Murden’s first Section 440 motion, the state has not shown that state courts regularly
demand compliance with this rule [in the circumstances of the petitioner’s claim].”).
In general, “[i]f there is no adjudication on the merits, then the pre-AEDPA, de novo
standard of review applies.” Cotto, 331 F.3d at 230 (citation omitted). Here, there is no
adjudication on the merits as to Ground 1(c), since the 440 court did not rule in the alternative in
the merits of the claim. See id. However, the 440 court did adjudicate Petitioner’s remaining
ineffective assistance claims on the merits. The Second Circuit has instructed that trial counsel’s
errors should be considered cumulatively, e.g., Rosario v. Ercole, 601 F.3d 118,142 (2d Cir. 2010)
(citations omitted), which complicates the question of which standard of review should apply. The
Court need not analyze the issue further because the standard of review is not outcomedeterminative in this case—the ineffectiveness claim fails even under a de novo standard of review.
See, e.g., Washington v. Schriver, 255 F.3d 45, 55 (2d Cir. 2001) (“We need not and do not resolve
today the question of whether § 2254(d)’s standard of review applies because nothing turns on it
here.”). Accordingly, the Court will apply the less-deferential, pre-AEDPA5 standard of review to
all of Petitioner’s allegations of ineffective assistance of trial counsel (Grounds 1(a), (b)(i), (b)(ii),
and (c)).
ITT.

Standard of Review for Petitioner’s Other Claims
AEDPA “reconfigured [the] standard of review in habeas cases, at least when the relevant

claim has been ‘adjudicated on the merits in State court proceedings,’ 28 U.S.C. § 2254(d), by
requiring ‘more deferential’ review[.]” Messiah v. Duncan, 435 F.3d 186, 197 (2d Cir. 2006)

5 Anti-Terrorism and Effective Death Penalty Act of 1996, Pub. L. No. 104-132,110 Stat 1214.

18

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 19 of 38

(quotation, citation, and footnote omitted). Now, “with respect to any claim that was adjudicated
on the merits in State court proceeding,” a writ of habeas “shall not be granted . . . unless the
adjudication of the claim . . . was contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court of the United States[,]” 28 U.S.C.
§ 2254(d)(1), or “was based on an unreasonable determination of the facts” in light of the record
before the state court, 28 U.S.C. § 2254(d)(2).6 Under AEDPA, “[a] state court’s determination
that a claim lacks merit precludes federal habeas relief so long as ‘fairminded jurists could
disagree’ on the correctness of the state court’s decision.” Harrington v. Richter, 562 U.S. 86,101
(2011) (quoting Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)).
A state court “need not mention the argument raised or cite relevant case law in order for
its ruling to constitute an ‘adjudication on the merits. Brown v. Artuz, 283 F.3d 492, 498 (2d Cir.
2002) (quotation omitted). Even when a state court rejects a federal claim without explicitly
addressing it, “a federal habeas court must presume that the federal claim was adjudicated on the
merits.” Williams v. Taylor, 568 U.S. 529, 301 (2000). Here, even though the New York Court of
Appeals did not explicitly discuss Petitioner’s due process claim in denying Grounds 2(a) and 2(b),
it nevertheless adjudicated these claims on the merits for purposes of AEDPA. Likewise, the 440
court’s summary denial of Ground 2(c) as without merit constitutes an adjudication on the merits
for AEDPA purposes. Accordingly, § 2254(d)(l)’s limitations on relief apply to the state courts’
rulings on Grounds 2(a), 2(b), and 2(c).

6 Where, as here, “[t]he parties do not dispute the underlying facts” as found by the state courts, Petitioner is “entitled
to habeas relief only if he can meet one of the two bases for relief provided in § 2254(d)(1).” Price v. Vincent, 538
U.S. 634,639-40(2003).

19

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 20 of 38

IV.

Merits of the Petition
A. Ineffective Assistance of Trial Counsel: Grounds 1(a), (b)(i), (b)(ii), and (c)
1. Legal Standard
The test set forth in Strickland v. Washington, 466 U.S. 668 (1984), for evaluating an

ineffective assistance of counsel claim has both a performance and a prejudice prong. The first
requires showing that counsel’s performance “fell below an objective standard of reasonableness.”
Id. at 688, 694. “The question is whether an attorney’s representation amounted to incompetence
under ‘prevailing professional norms,’ not whether it deviated from best practices or most common
custom.'"Harrington, 562 U.S. at 105 (quoting Strickland, 466 U.S. at 690).
To fulfill the prejudice prong, the petitioner must demonstrate “a reasonable probability
that, but for counsel’s unprofessional errors, the result of the proceeding would have been different.
“It is not enough ‘to show that the errors had some conceivable effect on the outcome of the
proceeding.’” Harrington, 562 U.S. at 104 (quoting Strickland, 466 U.S. at 693). Rather,
“counsel’s errors must be ‘so serious as to deprive the [petitioner] of a fair trial, a trial whose result
is reliable.’” Id. (quoting Strickland, 466 U.S. at 687). The Strickland standard is often described
as “‘highly deferential[.]’” Harrington, 562 U.S. at 105 (quoting Strickland, 466 U.S. at 689;
citation omitted).
2. Trial Counsel’s Alleged Errors
a. Failure to Call Petitioner’s Son as a Witness (Ground 1(a))
The trial transcript indicates that Petitioner’s son, Timothy, was on the defense witness list,
T.091-092, but ultimately was not called. Petitioner asserts that Timothy had knowledge of
“potentially exculpatory” information, and that Trial Counsel was ineffective in failing to call him.

20

4

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 21 of 38

In support of his 440 motion, Petitioner submitted an affidavit from Timothy, SR.294-295, who
stated that he lived with his father during the “summer of 2009” and that he “never once observed
[his] father being alone with either of the alleged victims.” SR.294. The 440 court held that
Timothy’s affidavit “makes it clear that he was not a witness to the sexual assaults .. . which does
not provide the defendant with a defense.” SR.302. Thus, Timothy’s affidavit “does not prove, by
clear and convincing evidence that the claim of innocence from the crime charged is highly
probable.” SR.302 (citation omitted).7 The 440 court further held that the decision not to call
Timothy “could also have been a matter of trial strategy and did not amount to ineffective of
counsel.” Id. (citation omitted).
In evaluating counsel’s decision not to call Timothy, the Court must “affirmatively
entertain the range of possible reasons . . . counsel may have had for proceeding as [he] did.”
Cullen v. Pinholster, 563 U.S. 170, 196 (2011) (internal quotation marks, quotation, and citation
omitted). Here, Petitioner’s own testimony demonstrates a “legitimate justification[ ] for
[counsel’s] conduct.” Greiner v. Wells, 417 F.3d 305, 320 (2d Cir. 2005). On cross-examination,

7 New York state courts have held that C.P.L. § 440.10(l)(h) embraces a claim of actual innocence and allows vacatur
of a conviction when a defendant shows, by “clear and convincing” evidence, that it is “highly probable” he is not
guilty of the crime charged. People v. Velazquez, 143 A.D.3d 126, 136 (1st Dep’t 2016) (citations omitted). While a
federal habeas petitioner may assert a claim of actual innocence to overcome a procedural bar, Schlup v. Delo, 513
U.S. 298, 326 (1995), or an expired limitation period, McQuiggin v. Perkins, 133 S. Ct. 1924, 1928 (2013), the
Supreme Court to date has declined to resolve whether a non-capital prisoner may be entitled to habeas relief based
on a freestanding claim of actual innocence, McQuiggin, 133 S. Ct. at 1931.
To the extent Petitioner asserts a freestanding claim of actual innocence, and assuming without deciding that such a
claim is cognizable in a § 2254 proceeding, the Supreme Court has stated that “the threshold [evidentiary]
showing . .. would necessarily be extraordinarily high.” Herrera v. Collins, 506 U.S. 390, 417 (1993). Accepting as
true that Timothy actually was living with Petitioner during the time-period at issue, the fact that he never saw
Petitioner alone with the complainants is hardly exonerating evidence; if Timothy were with his father, then his father
would not have been alone. Timothy’s affidavit plainly does not come close to meeting the “extraordinarily high”
standard that would be necessary to demonstrate actual innocence in a federal habeas proceeding, assuming the
cognizability of such a claim.

21

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 22 of 38

Petitioner stated that Timothy was not living with him during the summer of 2009 when the sexual
assaults on M.D. and O.D. allegedly occurred. See T.770 (“Q. And the children who lived there at
th[e] time [Davon went to rehab in the summer of2009] were O.D.? A. Yes. Q. Timothy? A. No.”).
Moreover, Timothy’s assertion that he never saw Petitioner alone with the complainants is of
minimal value to the defense; it becomes even less helpful if Timothy did not actually live in the
same house as Petitioner. Petitioner accordingly cannot demonstrate a reasonable probability that
calling Timothy as a witness would have led to a more favorable outcome at trial. And, Petitioner
cannot show the absence of a reasonable strategic reason for calling Timothy. To the contrary, trial
counsel reasonably elected not to put a witness on the stand whose testimony would, in all
likelihood, be severely undermined on cross-examination.
b. Failure to Call Medical and Psychological Expert Witnesses (Grounds
l(b)(i) and (ii))
Petitioner asserts that trial counsel should have retained a medical expert to rebut Dr.
Lenane’s testimony that less than five percent of child sexual abuse victims exhibit physical signs
of abuse and that the absence of physical indicia of abuse is not unusual. He also claims Trial
Counsel should have called a psychological expert to assess the reliability of the complainants’
testimony.
The law is clear that “whether to call any witnesses on behalf of the defendant, and if so
which witnesses to call, is a tactical decision of the sort engaged in by defense attorneys in almost
every trial.” United States v. Nersesian, 824 F.2d 1294, 1321 (2d Cir.), cert, denied, 484 U.S. 958
(1987). Moreover, the decision whether to call an expert witness at trial generally falls within the
realm of strategic choices that Strickland warns reviewing courts against second-guessing. See,
e.g., United States v. Kirsh, 54 F.3d 1062, 1072 (2d Cir.) (finding that trial counsel’s decision not
22

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 23 of 38

to call fingerprint expert “was plainly a tactical decision and hardly bespeaks professional
incompetence”), cert, denied, 516 U.S. 927 (1995). With regard to child sexual abuse cases in
particular, the Second Circuit has held that “‘[t]here is no per se rule that requires trial attorneys
to seek out an expert,” even in sexual abuse cases. Gersten v. Senkowski, 426 F.3d 588, 609 (2d
Cir. 2005) (internal quotation omitted).
Contrary to Petitioner’s contention, his case is readily distinguishable from Lindstadt v.
Keane, 239 F.3d 191 (2d Cir. 2001); Eze v. Senkowski, 321 F.3d 110 (2d Cir. 2003); and Pavel v.
Hollins, 261F.3d 210 (2d Cir. 2001), three child sexual abuse cases in which the Second Circuit
held that defense counsel’s failure to consult or call a medical expert was an error that, in
combination with other errors, amounted to ineffective assistance. In Lindstadt and Eze, the
prosecution’s medical experts testified that the minimal physical evidence was indicative of sexual
abuse, including vaginal penetration. See Lindstadt, 239 F.3d at 195-96; Eze, 321 F.3d at 115-16.
The Second Circuit characterized the physical evidence in both cases as inconclusive, which
heightened the need for defense counsel to consult with an expert to provide an alternative
interpretation. See Lindstadt, 239 F.3d at 204-05 (stating that “counsel’s failure to use an expert
or take other preparatory measures allowed the prosecution to dress up the weak and inconclusive
physical evidence in the trappings of [the prosecution witness]’s expertise”); Eze, 321 F.3d at 128
(“The importance of consultation and pre-trial investigation is heightened where, as here, the
physical evidence is less than conclusive and open to interpretation.”). In Pavel, defense counsel
failed to utilize an expert to highlight the “obvious, commonsense mismatch” between the
complete lack of physical evidence in the case of one of the victims, and the minimal physical
evidence in the case of the other victim, and the victims’ allegations that the petitioner anally
sodomized them at least weekly for four months. Pavel, 261 F.3d at 224-25 (citations omitted).
23

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 24 of 38

By contrast, in Petitioner’s case, the lack of physical evidence was unsurprising given that
the complainants alleged that Petitioner compelled them to perform oral sex on him and fondled
their vaginas. Unlike Eze, Lindstadt, and Pavel, the assaults against M.D. and O.D. did not involve
vaginal or anal intercourse. See, e.g.,Affser v. Murray, No. 04 CV 2715, 2008 WL 2909367, at *5
(E.D.N.Y. July .28,2008) (contrasting Eze, Lindstadt, and Pavel with Affser’s case where, “as a
matter of commonsense, the lack of physical evidence was to be expected because the allegations
were limited to fondling”). An additional difference is that “no prosecution expert interpreted the
physical evidence as affirmatively indicative of abuse,” and thus, Petitioner’s “case did not turn
on defense counsel’s understanding the ‘vagaries of abuse indicia.’” Affser, 2008 WL 2909367, at
*5 (quoting Eze, 321 F.3d at 128; further quotations omitted).
In sum, Petitioner’s claims about uncalled expert witnesses are based entirely on
speculation that there existed a medical expert who would have testified differently than Dr.
Lenane and a psychological expert who would have testified that the child complainants were not
credible witnesses. However, “there is nothing in trial counsel’s cross-examination of the
prosecution’s expert witnesses to suggest that counsel would have been able to obtain an expert
who would have testified differently, let alone favorably to his client.” Gifford v. Artus, No. 6:13CV-6060 MAT, 2013 WL 6837177, at *13 (W.D.N.Y. Dec. 26, 2013) (citing James v. United
States, No. 00 CIV.8818LAKGWG, S297CR185, 2002 WL 1023146, at *16 (S.D.N.Y. May 20,
2002)). Petitioner thus is unable to establish that he was prejudiced by trial counsel’s failure to call
medical or psychological expert witnesses, or that trial counsel’s decision was objectively
unreasonable under the circumstances. See id. , James, 2002 WL 1023146, at *16.

24

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 25 of 38

c. Failure to Impeach M.D. (Ground 1(c))
Prior to trial, the prosecution disclosed to the defense an investigative report by RPD
Investigator Brian Tucker (“Tucker”) concerning his interview with M.D. In it, Tucker indicated
that M.D. “at first denied she had ever touched or seen [Petitioner’s] private parts but then opened
up and talked about it.” T.649. Trial counsel did not use the report to impeach M.D. on crossexamination but later sought to introduce evidence of MD.’s prior inconsistent statements during
Tucker’s cross-examination. T.649. The prosecutor objected on the ground that trial counsel failed
to lay a proper foundation by first confronting M.D. with the prior inconsistent statement. T.651.
During the colloquy on this evidentiary issue, the trial court indicated that if it ruled in favor of the
defense, it was inclined to allow the prosecutor to elicit testimony from Tucker that M.D. made
prior consistent statements to him or others investigating the sexual abuse allegations. T.652-53.
Ultimately, before the trial court ruled, trial counsel announced that he was withdrawing his
request to ask the question. T.656.
“[T]he conduct of examination and cross-examination is entrusted to the judgment of the
lawyer, and an appellate court on a cold record should not second-guess such decisions unless
there is no strategic or tactical justification for the course taken.” United States v. Luciano, 158
F.3d 655, 660 (2d Cir. 1998). The Court finds that trial counsel pursued a legitimate strategy in
attempting to introduce the evidence of the prior inconsistency indirectly, through Tucker’s report,
rather by directly confronting the child complainant,vwhich risked making trial counsel appear
argumentative and unsympathetic in the jury’s eyes. See, e.g., United States ex rel. Hawthorne v.
Cowan, 224 F. Supp. 2d 1178,1193-94 (N.D. HI. 2002) (“[T]he court finds that it was a reasonable
decision of trial strategy for [counsel] to avoid over aggressively cross examining a victim in order
to avoid appearing belligerent and unsympathetic before the jury.”) (citing United States ex rel.
25

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 26 of 38

Lancaster v. Welbom, No. 99 C 7749, 2001 WL 1387014, at *3 (N.D. HI. Nov. 2, 2001) (refusing
to second guess trial counsel’s strategy to “treat the victim’s parents with kid gloves”)); Sharp v.
Kelly, No. 1:08CV79-GHD-JAD, 2010 WL 2539647, at *12 (N.D. Miss. May 28, 2010)
(“Apparently Sharp desired a very aggressive cross-examination. His attorney clearly understood
what Sharp apparently does not—Badgering a child witness is a fool’s tactic.”), report and
recommendation adopted, No. 1:08CV79-D-D, 2010 WL 2539610 (N.D. Miss. June 16, 2010).
Moreover, it can be inferred from the trial court’s statement about its proposed ruling that the
report contained evidence of prior consistent statements by M.D. and thus was not wholly
favorable to the defense. Notably, before receiving a ruling from the judge, trial counsel withdrew
his request to cross-examine Tucker using the report.
No two lawyers would have conducted the cross-examination of M.D. the same way, and
Petitioner has not demonstrated that trial counsel’s approach was objectively unreasonable.
Petitioner furthermore has failed to show a reasonable probability of a more favorable outcome
had trial counsel attempted a more aggressive cross-examination of M.D. using the police report.
d. Cumulative Effect of Trial Counsel’s Alleged Errors
Finally, the Court has considered the cumulative effect of the above-discussed
shortcomings by trial counsel. “The Sixth Amendment guarantees reasonable competence, not
perfect advocacy judged with the benefit of hindsight.” Yarborough v. Gentry, 540 U.S. 1,8 (2003)
(per curiam) (citations omitted). Even if trial counsel’s actions “resulted from error rather than
strategy or reasons beyond his control, counsel’s performance must still be accorded a degree of
deference, as the Sixth Amendment does not guarantee ‘error-free, perfect representation,’ Morris
v. Garvin, No. 98-CV-4661 (JG), 2000 WL 1692845, at *3 (E.D.N.Y. Oct. 10, 2000), but merely
a ‘wide range of professionally competent assistance,”’ Miller v. Graham, No. 14-CV-5901
26

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 27 of 38

(KAM), 2018 WL 3764257, at *18 (E.D.N.Y. Aug. 8, 2018) (quoting Strickland, 466 U.S. at 689),
certificate of appealability denied, No. 18-2598, 2019 WL 994387 (2d Cir. Jan. 24, 2019). None
of the alleged errors, viewed individually, were outside the range of reasonably competent
performance; nor is there any suggestion that they had more than a conceivable effect on the
outcome. Thus, even considering them cumulatively, they did not deprive Petitioner of his right to
the effective assistance of counsel as guaranteed by the Sixth Amendment. See, e.g., Wise v. Smith,
735 F.2d 735, 739 (2d Cir. 1984) (“Wise was not entitled to a perfect defense, and the cumulative
effect of the errors and omissions that we might find do not amount to a denial of effective
assistance of counsel.”).
B. Evidentiary Errors: Grounds 2(a), 2(b) and 2(c)
1. Legal Standard
Petitioner asserts that he was denied his due process right to a fair trial based on several
allegedly erroneous evidentiary rulings by the trial court., As the Supreme Court has stated “many
times,” Estelle v. McGuire, 502 U.S. 62, 67 (1991), “federal habeas corpus relief does not lie for
errors of state law.” Lewis v. Jeffers, 497 U.S. 764, 780 (1990). “[I]t is not the province of a federal
habeas court to reexamine state-court determinations on state-law questions.” Estelle, 502 U.S. at
67-68. Accordingly, an inquiry into whether the evidence at issue was correctly or incorrectly
admitted pursuant to a state’s evidentiary law is “no part of a federal court’s habeas review of a
state conviction.” Id. at 67; see also, e.g., Marshall v. Lonberger, 459 U.S. 422, 438, n. 6 (1983)
(“[T]he Due Process Clause does not permit the federal courts to engage in a finely tuned review
of the wisdom of state evidentiary rules”). Rather, the question for the habeas court is “whether
the admission of the [challenged] evidence violated [a petitioner]’s federal constitutional rights.”
Id. at 68.
27

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 28 of 38

2. The Allegedly Improper Evidence
a. Petitioner’s Prior Drug Use and Sexual Activities (Ground 2(a))
Prior to trial, the prosecutor moved in limine to admit evidence that Petitioner disciplined
M.D. and O.D. by beating them with a belt, rented the “bat cave” out to neighbors as a place to
have sex and do drugs, possessed crack cocaine at the time he was arrested, used crack cocaine
frequently, and had Davon and other consenting adult women perform oral sex on him in the same
manner he forced M.D. and O.D. to do, i.e., in a closet, with his shirt pulled over his head, while
he smoked crack. The trial court excluded all proposed categories of evidence except the last one.
Specifically, the trial court ruled that Davon could testify about her own sexual experiences with
Petitioner as well as her first-hand observations of Petitioner and another person engaging in sexual
activities on a particular date in 2009, provided that Davon could reasonably identify the other
person. T.078-087.
The Appellate Division found that the trial court’s evidentiary ruling was not improper
under People v. Molineux, 168 N.Y. 264, 293 (1901).8 Brewer, 129 A.D.3d at 1620. The Court of
Appeals affirmed, agreeing that evidence of Petitioner’s drug use could be properly admitted as
Molineux evidence because it was not proffered to show his propensity toward crime, but to
corroborate details of the victims’ testimony. Brewer, 28 N.Y.3d at 275-76. The Court of Appeals
likewise agreed with the Appellate Division that Petitioner’s idiosyncratic sexual practices with
adult women did not constitute a crime or bad act under Molineux, ‘“because it was neither a crime

8 As a matter of New York state law, “evidence of uncharged crimes is not admissible if the sole purpose is to show
that the defendant was predisposed to commit the crime charged.” People v. Alhveiss, 48 N.Y.2d 40, 46 (1979).
However, as long its probative value outweighs the potential prejudicial effect, such evidence may be admitted to
show motive, intent, the absence of mistake or accident, a common scheme or plan, or the identity of the perpetrator.
Molineux, 168 N.Y. at 293. The list in Molineux is “illustrative and not exhaustive.” People v. Rojas, 97 N.Y.2d 32,
37 (2001). Uncharged crimes evidence that is necessary to provide “background material” or to “complete the narrative
of the episode” may also be admissible. People v. Till, 87 N. Y.2d 835, 837 (1995) (internal citations omitted).

28

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 29 of 38

nor a prior bad act for him to receive consensual oral sex from an adult in a closet with his T-shirt
pulled over his head[.]”’ Id. at 275-76 (quoting Brewer, 129 A.D.3d at 1620). The fact that
Petitioner “had engaged in oral sex with consenting adult women, while in a closet smoking crack
with his shirt pulled over his head, showed no propensity to commit the crimes for which he was
on trial. That this evidence corroborated the girls’ accounts does not render it propensity evidence,
because corroboration and propensity are distinct concepts.” Id. at 276. Because there existed a
“proper nonpropensity purpose” for the evidence, the decision whether to admit it “rest[ed] upon
the trial court’s discretionary balancing of probative value and unfair prejudice[.]” Id. (quotations
omitted). Observing that a trial court enjoys “broad discretion” in deciding whether to admit
evidence, and that such decisions will be overruled only where the court abused its discretion or
exercised none at all, the Court of Appeals concluded that neither happened in Petitioner’s case.
As an initial matter, the Supreme Court has never held that the admission of evidence of a
defendant’s uncharged crimes to show criminal propensity violates the due process clause. See
Bugh v. Mitchell, 329 F.3d 496, 512 (6th Cir. 2003) (“There is no clearly established Supreme
Court precedent which holds that a state violates due process by permitting propensity evidence in
the form of other bad acts evidence.”) (citing Estelle, 502 U.S. at 75 n. 5 (“expressing] no opinion
on whether a state law would violate the Due Process Clause if it permitted the use of ‘prior crimes’
evidence to show propensity to commit a charged crime”); see also Larson v. Palmateer, 515 F.3d
1057, 1066 (9th Cir. 2008) (“The Supreme Court has expressly reserved the question of whether
using evidence of the defendant’s past crimes to show that he has a propensity for criminal activity
could ever violate due process.”) (citing Estelle, 502 U.S. at 75 n. 5).
“When there is no Supreme Court holding on a given issue, ‘it cannot be said that the state
court unreasonably applied clearly established Federal law’ within the meaning of AEDPA.” Smith
29

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 30 of 38

v. Wenderlich, 826 F.3d 641, 649 (2d Cir. 2016) (quoting Carey v. Musladin, 549 U.S. 70, 77
(2006); (alterations omitted)). Accordingly, even if the Court of Appeals erroneously determined
that the prior uncharged crimes evidence was admissible under state law, that ruling was neither
“contrary to,” nor an “unreasonably application of’ clearly established Supreme Court precedent
so as to entitle Petitioner to relief under .28 U. S.C, § 2254(d)(1). See, e.g.., Larson, 515 F.3dat 1066
(“Because the [Supreme] Court has ‘expressly left this issue an “open question,”’ the state court
did not unreasonably apply clearly established federal law in determining that the admission of
evidence of Larson’s criminal history did not violate due process.”) (quoting Albemi v. McDaniel,
458 F.3d 860, 866 (9th Cir. 2006); citing 28 U.S.C. § 2254(d)(1)); see also, e.g., Fernandez v.
Ercole, No. 14CV2974HBPRA, 2017 WL 2364371, at *4 (S.D.N.Y. May 31, 2017) (same;
collecting cases).
The claim fares no better when considered against the Supreme Court’s precedents
regarding the due process clause’s broader fair-trial guarantee. See Coningford v. Rhode Island,
640 F.3d 478, 485 (1st Cir. 2011) (stating that since the Supreme Court had not set forth “a
governing rule [concerning] the admission of prior bad acts evidence, the broader fair-trial
principle [was] the beacon by which [the court] must steer”). Due process “requires the state courts
in conducting criminal trials to proceed consistently with ‘that fundamental fairness’ which is
‘essential to the very concept of justice.’” Dunnigan v. Keane, 137 F.3d 117, 125 (2d Cir. 1998)
(quoting Lisenba v. California, 314 U.S. 219, 236 (1941); citation omitted), abrogated on other
grounds by Perry v. New Hampshire, 565 U.S. 228 (2012). The Supreme Court has “defined the
category of infractions that violate ‘fundamental fairness’ very narrowly.” Dowling v. United
States, 493 U.S. 342, 352 (1990) (citation omitted).

30

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 31 of 38

Petitioner simply argues that the evidence in question was so unfairly prejudicial that it
worked a denial of due process. However, “the admission of prejudicial evidence, without more,
cannot be unconstitutional.” United States v. LeMay, 260 F.3d 1018, 1026 (9th Cir. 2001). “All
evidence introduced against a criminal defendant might be said to be prejudicial if it tends to prove
the prosecution’s case[,]” id., as the Court of Appeals recognized in its decision, Brewer, 28
N.Y.3d at 277.
Where “the prejudicial evidence is ‘probative of [an] essential element’ in the case, its
admission does not violate the defendant’s right to due process.” Dunnigan, 137 F.3d at 125
(quoting Estelle, 502 U.S. at 69). In Estelle, the petitioner was accused of killing his infant
daughter. 502 U.S. at 64. At trial, in order to establish that the victim suffered from “battered child
syndrome” and that her ultimately fatal injuries were not accidental, the prosecution introduced
evidence of severe, non-accidental injuries previously suffered by the victim. Id. at 66, 68. After
he was convicted, the petitioner in Estelle argued that the admission of the prior injury evidence
violated his right to due process. The Supreme Court reversed the lower court’s grant of habeas on
this claim, holding that the admission of the evidence did not rise to the level of a due process
violation because “the prior injury evidence was relevant to an issue in the case.” Id. at 70. In light
of that conclusion, the Supreme Court stated, it “need not explore further the apparent assumption
of the [lower court] that it is a violation of the due process guaranteed by the Fourteenth
Amendment for evidence that is not relevant to be received in a criminal trial.” Id.
Here, the evidence of Petitioner’s sexual proclivities (receiving oral sex from adult women
while smoking crack with his t-shirt behind his head) was relevant to corroborating the
complainants’ testimony on the issue of identity—that is, whether the complainants were sexually
abused by Petitioner in the manner that they described. The prosecution introduced proof that the
31

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 32 of 38

“bat cave” where Petitioner’s consensual sexual activities occurred was strictly off-limits to the
complainants. As the girls had no opportunity to witness Petitioner’s sexual encounters with their
mother or other women, the evidence that Petitioner “had engaged in oral sex with consenting
adult women, while in a closet smoking crack with his shirt pulled over his head” clearly was both
“relevant and probative, as it tended to support the girls’ account of their abuse by corroborating
the peculiar manner in which defendant engaged in oral sex.” Brewer, 28 N.Y.3d at 276, 277.
To be sure, Davon’s testimony about Petitioner’s prior sexual encounters with adult women
while using drugs was prejudicial to him, but not because it tended to show Petitioner’s propensity
to sexually assault children. Rather, the prejudicial effect of the evidence flowed from its ability
to “strengthen[ ] the People’s case by making the victims’ accounts ring true.” Brewer, 28 N.Y.3d
at 277. Petitioner has not pointed to any Supreme Court decisions precluding the admission of
prior bad acts or other potentially prejudicial evidence for purposes of corroboration or establishing
a witness’s credibility. In Dowling, 493 U.S. 342, for instance, the Supreme Court found that such
evidence did not violate due process. Dowling had previously been acquitted of an alleged burglary
at the home of one Vena Henry (“Henry”). Id. at 344-45. At Dowling’s subsequent trial on a
separate bank robbery charge, however, the government called Henry to testify that the person
who burgled her home had been wearing a mask and carrying a gun, and that she had unmasked
the burglar, whom she positively identified as Dowling. See id. at 352-54. Henry’s “description of
Dowling as wearing a mask and carrying a gun similar to the mask worn and the gun carried by
the robber of the First Pennsylvania Bank strengthened the Government’s identification of
Dowling as the bank robber.” Id. at 345. Dowling asserted that Henry’s testimony was unfairly
prejudicial and violated his right to due process. The Supreme Court disagreed, holding that the
admission of the witness’s testimony concerning Dowling’s prior robbery, despite his acquittal on
32

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 33 of 38

that charge, was not within the category of “infractions that violate ‘fundamental fairness,’” id. at
353 (citations omitted), “[especially in light of the limiting instructions provided by the trial
judge,” id. The Supreme Court added that Henry’s the testimony “plainly . . . was at least
circumstantially valuable in proving petitioner’s guilt,” id.
At Petitioner’s trial, defense counsel did not request a limiting instruction after Davon’s
testimony, and none was given by the trial court. Dowling, however, “does not say that without
[limiting] instructions a due process violation would have occurred,” but “simply observes that the
limiting instructions [given by the trial court] reinforce the conclusion that the defendant’s rights
were not violated.” United States v. Smith, 145 F.3d 458,461-62 (1st Cir. 1998). Thus, the absence
of a limiting instruction does not lead to the conclusion that a due process violation occurred as a
result of the admission of Davon’s testimony. See id. -, see also Keaton v. Folino, No. 11-CV07225-PD, 2018 WL 8584252, at *31 (E.D. Pa. Nov. 15, 2018) (The [Supreme Court] cases cited
to by [the petitioner] do not hold that the Due Process clause requires a limiting instruction any
time prior bad acts are admitted as evidence. The Supreme Court has never imposed such a due
process requirement, much less required such an instruction as a Constitutional minimum when
charges are consolidated for trial.”) (citing, inter alia, Estelle, 502 U.S. at 75), report and
recommendation adopted, No. CV 11-7225, 2019 WL 2525609 (E.D. Pa. June 19, 2019). A
limiting instruction “may be good practice, and is generally required under federal evidentiary law
(when requested), in the case of uncharged conduct[,]” Keaton, 2018 WL 8584252, at *31 (citing
Huddleston v. United States, 485 U.S. 681,691-92 (1988), “[b]ut it is not a categorical due process
requirement” under any Supreme Court precedent, id. (citations omitted). Furthermore, Petitioner
has not raised an independent claim that trial counsel erred in failing to request a limiting
instruction, or that the trial court erred in sua sponte failing to issue one. Even if Petitioner had
33

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 34 of 38

done so, he has not met the “especially heavy” burden on a petitioner when “no erroneous
instruction was given,” Henderson v. Kibbe, 431 U.S. 145, 155 (1977), which requires a showing
that the omission “infectfed] the entire trial with unfaimess[,]” Cupp v. Naughten, 414 U.S. 141,
147 (1973).
Because the testimony about Petitioner’s drug use and sexual proclivities was relevant and
probative as to an issue in this case, the New York Court of Appeals’ ruling upholding the trial
court’s admission of the evidence was neither an unreasonable application of, nor was it contrary
to, clearly established Supreme Court precedent. See, e.g., Bugh, 329 F.3d at 512-13 (result of state
court decisions allowing admission in rape trial of evidence pertaining to petitioner’s alleged prior,
uncharged acts of child molestation was not contrary to clearly established Supreme Court
precedent, so as to warrant federal habeas relief on grounds that evidence served only to show that
petitioner was a “bad” man and was so prejudicial as to violate petitioner’s due process rights,
inasmuch as there was no clearly established Supreme Court precedent holding that state violated
due process by permitting propensity evidence in the form of other bad acts evidence).
b. Hearsay Statement by M.D. Disclosing Abuse to her Mother (Ground
2(b))
Petitioner asserts that the trial court erroneously allowed Davon to testify about M.D.’s
disclosure of the abuse to her, based on its finding that the testimony was both a “prompt outcry”
and a so-called “spontaneous utterance.” The Appellate Division rejected this evidentiary claim
without explanation. Brewer, 129 A.D.3d at 1620-21 (concluding that “defendant’s remaining
contentions . .. lack merit”). The Court of Appeals observed that while the trial court indicated it
would allow the testimony as a “prompt outcry” and a “spontaneous utterance,” it was clear, in
light of the prosecution’s arguments, that the trial court used the term “spontaneous utterance”
interchangeably with “excited utterance.” Brewer, 28 N.Y.3d at 278. Finding that the “brief
34

*

>i

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 35 of 38

account of what MD told her mother can be viewed as both a prompt outcry and an excited
utterance,” its “admission was proper.” Brewer, 28 N.Y.3d at 278.
As noted above, the improper admission of evidence violates due process only if it renders
the defendant’s trial fundamentally unfair. See Estelle, 502 U.S. at 70. The Supreme Court has
held that out-of-court statements characterized as “excited utterances” or “spontaneous
declarations” are “firmly rooted” exceptions to the rule against hearsay. Idaho v. Wright, 497 U.S.
805, 820 (1990); White v. Illinois, 502 U.S. 346, 355-56 (1992). That court has never held “that
application of the excited utterance hearsay exception may render a trial fundamentally unfair[.]”
Schubert v. Warner, 605 F. App’x 688, 688 (9th Cir. 2015) (unpublished opn.) (finding that the
state court’s denial of the petitioner’s due process claim based on introduction of victim’s out-ofcourt statements to family friend under excited utterance exception was “not contrary to or an
unreasonable application of Supreme Court authority”).
The Court of Appeals’ holding that Davon’s testimony was admissible under the prompt
outcry exception to the hearsay rule likewise not an unreasonable application of, or contrary to,
clearly established Supreme Court precedent. “The Supreme Court has never reviewed the
admissibility of prompt outcry evidence, let alone the need or timing for delivering a limiting
instruction as to such evidence, so the [state appellate court]’s decision cannot be contrary to, or
an unreasonable application of, any Supreme Court authority.” Hernandez v. Superintendent of
Clinton Corr. Facility, No. 19-CV-5832 (BMC), 2019 WL 6716738, at *4 (E.D.N.Y. Dec. 10,
2019) (citing Carmell v. Texas, 529 U.S. 513, 522 (2000) (elimination of requirement for
corroboration under state law where rape victim did not raise hue and cry for more than six months
after attack could not be applied ex post facto)).

35

4

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 36 of 38

To the extent Petitioner contends that the admission of Davon’s testimony about M.D.’s
disclosure constituted “improper bolstering” of MD.’s credibility, the rule against bolstering is a
creature of New York evidentiary law, not a constitutional matter. See, e.g., Glover v. Burge, 652
F. Supp. 2d 373, 377 (W.D.N.Y. 2009) (“[T]he overwhelming weight of federal authority in this
Circuit holds that ‘bolstering’ of a prosecution witness’s testimony does not state a constitutional
claim redressable on federal habeas review.”)). Accordingly, even if the admission of the
testimony under the prompt outcry exception resulted in bolstering of M.D.’s testimony, the Court
cannot find a constitutional violation. E.g., Hernandez, 2019 WL 6716738, at *4 (collecting
cases).

Finally, Petitioner cannot demonstrate that the admission of Davon’s testimony under
either the excited utterance or prompt outcry exceptions violated his right to confrontation under
the Sixth Amendment, given that M.D. testified and was cross-examined. See, e.g., Cusumano v.
McFarland, No. CIV. 04-5080 (RBK), 2006 WL 1455785, at *4 (D.N.J. May 18, 2006) (stating
that the admission of the victim’s mother’s “fresh complaint” hearsay testimony regarding the
victim’s disclosure of sexual abuse does not implicate the Confrontation Clause because the victim
testified and was cross examined) (citing California v. Green, 399 U.S. 149, 162 (1970) (“For
where the declarant is not absent, but is present to testify and to submit to cross-examination, our
cases, if anything, support the conclusion that the admission of his out-of-court statements does
not create a confrontation problem”)).
c. Introduction of the Photograph of a T-Shirt (Ground 2(c))
This evidentiary claim involves People’s Exhibits 26 ad 84. Exhibit 26, to which Petitioner
objects, is a photograph of a t-shirt lying on a pillow in the back bedroom used by Fat Boy and
Gator. People’s Exhibit 84, to which Petitioner does not object, is a photograph of a t-shirt from
36

i

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 37 of 38

which semen matching Petitioner’s DNA profile was recovered. T.663-664, 666-667, 672-673,
699. The prosecution sought to have the jury compare the t-shirts in Exhibits 26 and 84 and
conclude they were the same. Petitioner argues that Exhibit 26 was irrelevant and inadmissible, in
light of Davon’s testimony that the t-shirt in that exhibit belonged to Fat Boy and that she never
saw Petitioner wearing it. T.372-373, 415-416. Petitioner raised this claim in his 440 motion, and
the 440 court summarily denied it as without merit. SR. 3 03.
Since it is not the province of a federal habeas court to review the correctness of state court
rulings on matters of state evidentiary law, the Court is concerned only with whether the admission
of Exhibit 26 violated Petitioner’s due process right to a fundamentally fair trial. “The relevancy
of evidence precludes a determination that its admission violated due process.” Rodriguez v.
O’Keefe, No. 96 CIV. 2094 (LLS), 1996 WL 428164, at *3 (S.D.N.Y. July 31, 1996) (citing
Estelle, 502 U.S. at 70)), aff'd, 122 F.3d 1057 (2d Cir. 1997). “Only if there are no permissible
inferences the jury may draw from the evidence can its admission violate due process. ” Jammal v.
Van de Kamp, 926 F.2d 918, 920 (9th Cir. 1991) (emphasis in original). Even then, the evidence
must “be of such quality as necessarily prevents a fair trial[,]” Id. (quoting Lisenba, 314 U.S. at
236), in order to warrant federal habeas relief, id.
As Petitioner notes, the prosecution wished to have the jury compare the t-shirts depicted
in Exhibits 26 and 84 and conclude they were the same. From this conclusion, the jury could then
draw two inferences—-that the t-shirt depicted in the back bedroom (Exhibit 26) was the same tshirt from which semen matching Petitioner’s DNA profile was recovered (Exhibit 84), and that
Petitioner sexually assaulted M.D. in the back bedroom, as she had alleged. Thus, Exhibit 26
clearly was relevant to a key issue at trial. Davon’s testimony that she never saw Petitioner wearing
the t-shirt depicted in Exhibit 26 did not render the evidence irrelevant or inadmissible. Rather,
37

Case 6:19-cv-06486-FPG Document 28 Filed 09/10/20 Page 38 of 38

that testimony went only to the weight of the evidence and inferences to be drawn from it. Since
the evidence was relevant and allowed the jury to draw permissible inferences, the Court cannot
find that the 440 court’s rejection of this evidentiary claim was contrary to, or an unreasonable
application of, clearly established Supreme Court precedent.
CONCLUSION
For the foregoing reasons, the request for a writ of habeas corpus is DENIED, and the
Petition, ECF No. 1, is DISMISSED. Because Petitioner has failed to make a substantial showing
of the denial of a constitutional right, see 28 U.S.C. § 2253(c)(2), a certificate of appealability is
DENIED.
IT IS SO ORDERED.
Dated: September 9, 2020
Rochester, New York.

QM. FRANK P. GE^/CI, JR.
Chief Judge
United States District Court

38

i

